Supreme Court, U.S.
FILED

WAIVER

OCT 2 3 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

T.R.C.

19-436
v.

State of Wisconsin

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
LI Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Guardian Ad Litem

0 I am a member of the Bar of the Supreme Court of the United States.
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a B jnember.
Signature
Date.

October 14, 2019
Andrew W. Boden, Guardian Ad Litem
0 Mr.
0 Ms. 0 Mrs. 0 Miss
Legal Aid Society of Milwaukee

(Type or print) Name
Firm

Address

10201 Watertown Plank Rd

City & State
Phone

Wauwatosa, WI

414-257-7159

Zip
Email

53226

aboden@lasmilwaukee.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Andrew Shaw

`-

OFFICE OF THE DISTRICT ATTORNEY
VEL R. PHILLIPS YOUTH AND FAMILY JUSTICE CENTER

ti1(

/Milwaukee County

4

JOHN T. CHISHOLM • District Attorney

October 15, 2019

Supreme Court of the United States
Attn: Clerk Office
1 First Street NE
Washington, DC 20543

Re:

T.R.C. v. State of Wisconsin Supreme Court Case No. 19-436

To Whom It May Concern:
Enclosed please find the following as it relates to

above matter:'

Waiver from Atty Rebecca A Kiefer, Counsel of Record for State of
Wisconsin
Waiver from Atty Andrew Boden, Counsel of Record as Guardian ad
litem
Please do not hesitate to contact me should you need any further information.
Very truly yours,

Assistant District Attorney
Cc:

Atty Andrew Shaw, Counsel of Record for T.R.C.
Atty Andrew Boden, COunsel of Record a* s' GuaVdian ad litem
File

RECEIVED
Kov -5 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

VEL R. PHILLIPS YOUTH AND FAMILY. JUSTICE CENTER, LEGAL WING • 10201 WATERTOWN PLANK ROAD • MILWAUKEE, WI 53226
TELEPHONE (414) 257-7725 • FAX (414) 454-4010

